No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CHAD F. WOLF, ACTING SECRETARY
OF HOMELAND SECURITY, ET AL., PETITIONERS
v.
COOK COUNTY, ILLINOIS, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 7th day of October 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 7150 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
October 7, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 7, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

CHAD F. WOLF, ACTING SECRETARY OF HOMELAND SECURITY, ET AL
COOK COUNTY, ILLINOIS, ET AL

State’s Attorney Jessica M. Scheller, Chief
Advice, Business & Complex Litigation Division
COOK COUNTY STATE’S ATTORNEY’S OFFICE
500 W. Richard J. Daley Center
Chicago, IL 60602
Phone: (312) 603-4320
Jessica.Scheller@cookcountyil.gov
David E. Morrison
GOLDBERG KOHN LTD.
55 E. Monroe St., Suite 3300
Chicago, IL 60603
Phone: (312) 201-4000
david.morrison@goldbergkohn.com
Tacy F. Flint
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000
tflint@sidley.com

